HHS/OIG, Audit - "Review of Claims for Multiple Procedures Performed in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02654)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Claims for Multiple Procedures Performed in the Same Operative
Session in Ambulatory Surgical Centers," (A-07-03-02654)
December 4, 2002
Complete Text of Report is available in PDF format
(425 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Regulations require that when multiple services are provided
in the same operative session, the highest paying procedure is reimbursable
at the full payment rate while the other procedures are reimbursable at one-half
the normal payment rate.  Our review of the Cahaba Government Benefit Administrators
(CGBA) systems showed that CGBA failed to identify such instances, which resulted
in provider overpayments for calendar years 1997 through 2001of approximately
$19,681, $60,148, $64,899, $93,080, and  $107,604 ($345,412), respectively.
Included in the identified overpayments is approximately $71,384 in beneficiary
overpayments for coinsurance.  Most of the overpayments occurred because
the carriers processing system did not identify multiple procedures performed
during the same session when submitted on separate claims.